BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Reply Brief of Petitioner Capital Case
in 20-1302 Casey A. McfVhorter v. Commissioner,
Alabama Department of Corrections, Attorney General
of the State of Alabama, was sent via Next Day Service
to the U.S. Supreme Court, and 3 copies via Next Day
and e-mail service to the following parties listed below,
this 24th day of May, 2021:
James Roy Houts
Deputy Assistant Attorney General
Alabama Attorney General's Office
501 Washington Ave.
Montgomery, AL 36130
(334) 242-7300
James.Houts@AlabamaAG.gov

Counsel for Respondent
Benjamin Rosenberg
Counsel of Record
Dechert LLP
Three Bryant Park
1095 Avenue of the Americas
New York, New York 10036
(212) 698-3500
benjamin.rosenberg@dechert.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Robert C. Newman
The Legal Aid Society
199 Water Street
New York, New York 10038
(212) 577-3354
Sam H. Franklin
Lightfoot, Franklin & White, LLC
The Clark Building
400 20th Street North
Birmingham, Alabama 35203
(205) 581-0720

Counsel for Petitioner

All parties required to be served have been
served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 24, 2021.

Amy Triplett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

/Yl-,'11

J4, ~,

Notary Public
[seal]

d:;; Oo

1#f

if I

